      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report
                      Grants for the Construction
                         of Health Care Facilities
                            Department of Health
                  Government of the Virgin Islands




No. 2002-I-0043                     SEPTEMBER 2002
                                                                                   V-IN-VIS-0001-2002

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                        Caribbean Regional Office
                                       Federal Building, Room 207
                                    St. Thomas, Virgin Islands 00802

                                                                                September 20, 2002

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report "Grants for the Construction of Health Care Facilities, Department of
         Health, Government of the Virgin Islands" (No. 2002-I-0043)

Dear Governor Turnbull:

       This report presents the results of our audit of Office of Insular Affairs grants for the
construction of health care facilities in the Virgin Islands.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by October 24, 2002. The response should provide
the information requested in Appendix 5 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                              Sincerely,


                                              Arnold E. van Beverhoudt, Jr.
                                              Regional Audit Manager

cc:    Commissioner of Health
       Commissioner of Property and Procurement
       Commissioner of Finance
             United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL

                                    Caribbean Regional Office
                                   Federal Building, Room 207
                                St. Thomas, Virgin Islands 00802

                                      October 2, 2002

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject:    Audit Report "Grants for the Construction of Health Care Facilities, Department
            of Health, Government of the Virgin Islands" (No. 2002-I-0043)

Dear Governor Turnbull:

       Subsequent to our submission of the subject final audit report for printing, we
received a response (copy attached) to the draft of the report from the Commissioner of
Health. The response was dated August 2, 2002, but was not delivered to our office on
St. Thomas until August 27, 2002.

        Based on the Commissioner’s response, we consider Recommendation 4 to be
resolved but not implemented and Recommendations 5, 6, and 7 to be resolved and
implemented. The response did not address Recommendation 8 and, therefore, we consider
that recommendation to be unresolved. Recommendations 1, 2, and 3 (addressed to the
Commissioner of Property and Procurement) and Recommendation 9 (addressed to the
Commissioner of Finance) are also considered to be unresolved.

         Please provide a response, by the October 24, 2002 due date cited in the transmittal
letter of the final audit report, that includes the information requested in Appendix 4 of the
report for Recommendations 1, 2, 3, 8, and 9. For Recommendation 4, please provide to the
Office of Insular Affairs, U.S. Department of the Interior supporting documentation for the
$1,082,290 classified as unsupported costs in Appendix 1 of the report.

      If you have any questions concerning this letter, please contact me or Mr. Hannibal
Ware, Deputy Audit Manager, at (340) 774-8300.

                                         Sincerely,


                                         Arnold E. van Beverhoudt, Jr.
                                         Regional Audit Manager

cc: Commissioner of Health
    Commissioner of Property and Procurement
    Commissioner of Finance
Attachment
EXECUTIVE SUMMARY
                         In fiscal years 1991 and 1992, the U.S. Department of the
Health Care Facilities   Interior=s Office of Insular Affairs awarded to the Virgin Islands
Construction Grants      Department of Health two grants totaling $30.5 million for the
Were Not                 construction of eight health care facilities on the islands of
Administered             St. Thomas, St. Croix, and St. John. As of February 2002,
Effectively by the       $26.6 million of the $30.5 million grants had been expended on
                         the projects. Some grant projects were not well managed.
Department of Health
                         Noncompetitive procurement and the failure to follow established
                         land acquisition procedures contributed to the expenditure of
                         $870,700 on the construction of a health clinic on St. Croix that
                         was never completed. In our opinion, the handling of the
                         transactions related to this health clinic serve as a case study on
                         the inefficiencies and waste of public funds that can occur when
                         established procurement regulations and procedures are
                         circumvented in the name of expediency. On other projects, we
                         found that contracts were awarded to individuals who did not
                         have the appropriate business licenses and that contract files were
                         incomplete.

                         Financial management for the construction grants was not
                         adequate. The Department of Health could not furnish supporting
                         documentation for a reimbursement claim of about $1.1 million.
                         On the other hand, we identified expenditures of $772,832 that
                         were not claimed for reimbursement. We also found that required
                         grant financial and progress reports were either not prepared or
                         not submitted on time. Finally, we were not able to trace
                         13 letter-of-credit drawndowns totaling $7.6 million to the
                         Government of the Virgin Islands financial management system
                         because of poor record keeping.


                         We made nine recommendations to the Governor of the Virgin
Recommendations          Islands to address the internal control deficiencies discussed in
and Response from        the report. We received a response from the Department of
the Government of        Property and Procurement to three recommendations that were
the Virgin Islands       addressed to that agency. However, despite several follow-up
                         inquiries to the Department of Health, we did not receive a
                         response to the other six recommendations. We consider the nine
                         recommendations unresolved.




                                        1
[ Page intentionally left blank ]




               2
CONTENTS
                   ................................................. 1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
RESULTS OF AUDIT   Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                   Financial Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
RECOMMENDATIONS

                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
APPENDICES         2.   Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                   3.   Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . 21
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . 25




                                         3
[ Page intentionally left blank ]




               4
INTRODUCTION
                The Virgin Islands Code (3 V.I.C. § 418) gives the Department
BACKGROUND      of Health "the general authority and jurisdiction to provide
                general medical and surgical care of acceptable standards for the
                people of the Virgin Islands." In order to carry out this mandate,
                renovation work had commenced on several health care facilities
                in the Virgin Islands prior to Hurricane Hugo in September 1989.
                The hurricane destroyed much of the new work and demolished
                other existing health care facilities. Therefore, in response to the
                Department’s special needs and the destruction of facilities
                caused by the hurricane, in April 1991, the Department, in
                conjunction with a stateside consulting firm, developed a
                Comprehensive Health Facilities Construction Plan.

                In fiscal years 1991 and 1992, the U.S. Department of the
                Interior’s Office of Insular Affairs (then the Office of Territorial
                and International Affairs) awarded to the Department of Health,
                through the Virgin Islands Office of Management and Budget,
                two grants totaling $30.5 million for construction projects related
                to health care facilities in the Virgin Islands. The grants funded
                the eight construction projects included in the Comprehensive
                Health Facilities Construction Plan: (1) St. Thomas Hospital,
                (2) Knud Hansen Complex, (3) St. Thomas Community
                Rehabilitation Center, (4) St. Croix Hospital, (5) Charles
                Harwood Complex, (6) Ingeborg Nesbitt Clinic, (7) St. Croix
                Community Rehabilitation Center, and (8) Myrah Keating Smith
                Clinic. As of February 2002, $26.6 million of the $30.5 million
                grants had been expended, although only $25.8 million had been
                drawndown through December 3, 2001.


                The objective of the audit was to determine whether (1) contracts
OBJECTIVE AND   for the construction of health care facilities were awarded
SCOPE           competitively and administered in accordance with applicable
                laws and regulations, and (2) grant funds were expended in
                accordance with applicable laws and regulations. The scope of
                the audit included a review of grant transactions that occurred
                during fiscal years 1996 through 2001 and other periods as
                appropriate.




                               5
              To accomplish our audit objective, we interviewed officials and
              reviewed grant-related records at the Department of Health on
              St. Thomas and St. Croix, the Office of Management and Budget
              and the Department of Finance on St. Thomas and the
              Departments of Property and Procurement and Licensing and
              Consumer Affairs on St. Thomas and St. Croix. We also made
              site visits to health care facilities on St. Thomas, St. Croix, and
              St. John.

              The scope of our review was limited because Department of
              Health personnel were unable to provide us with supporting
              documents for expenditures totaling $1.1 million that were
              included in Financial Status Reports submitted to the Office of
              Insular Affairs. As a result, we were unable to review specific
              charges made against the grants to determine whether grant funds
              were expended in accordance with applicable laws and
              regulations. We therefore classified these expenditures as
              unsupported costs. (See Appendix 1 for the monetary imacts of
              this audit.)

              Our audit was conducted in accordance with the "Government
              Auditing Standards," issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records
              and other auditing procedures that were considered necessary
              under the circumstances. The Standards require that we obtain
              sufficient, competent, and relevant evidence to afford a
              reasonable basis for our findings and conclusions.

              As part of our audit, we evaluated the internal controls related to
              the awarding of contracts and the accountability for grant funds
              to the extent we considered necessary to accomplish the audit
              objective. Internal control weaknesses identified in these areas
              are discussed in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the internal
              controls in these areas.


              In May 1996, the Office of Inspector General issued the audit
PRIOR AUDIT   report "Grants for the Construction of Health Care Facilities,
COVERAGE      Government of the Virgin Islands" (see Appendix 2).




                             6
RESULTS OF AUDIT
                 The Government of the Virgin Islands (V.I. Government) did not
OVERVIEW         effectively administer contracts for the construction of health care
                 facilities and did not maintain adequate financial accountability
                 for the Office of Insular Affairs grants. Specifically, we found
                 that:

                 “ Established competitive procurement procedures were not
                    followed in the award of the contract for construction of a
                    new Christiansted Health Clinic. By the time the project was
                    terminated, the V.I. Government had already paid the
                    contractor $449,400 for work on the uncompleted facility. In
                    addition, the V.I. Government was required to reimburse the
                    Office of Insular Affairs for $421,300 spent on the previously
                    abandoned project to renovate the Charles Harwood
                    Complex.

                 “ Contracts were awarded to two contractors (out of nine
                    reviewed) who did not have the appropriate business licenses,
                    and required documents were missing from nine of ten
                    contract files reviewed.

                 “ Supporting documentation was not available for expenditures
                    totaling $1.1 million that were reported on Financial Status
                    Reports submitted to the Office of Insular Affairs.

                 “ Grant drawdowns had not been requested to reimburse local
                    funds for expenditures totaling $772,832 that were applicable
                    to grant-funded projects, and drawdowns that were made
                    were not timely recorded to the appropriate accounts in the
                    V.I. Government’s Financial Management System.

                 “ Financial and narrative reports either were not submitted to
                    the Office of Insular Affairs or were submitted late.


                 The V.I. Government did not effectively administer contracts for
CONTRACT         the construction of health care facilities because (1) established
ADMINISTRATION   competitive procurement procedures were circumvented for at
                 least one major construction contract, resulting in payments
                 totaling $870,700 for facilities that were not completed; (2)
                 contracts were awarded to individuals who did not have
                 appropriate business licenses; and (3) contract files were
                 incomplete.


                                7
$870,700 Was Spent on     In 1997, renovations to the Charles Harwood Complex on
Construction Projects     St. Croix were suspended by the then-Governor and a project was
That Were Not Completed   initiated to build a new health clinic on a 4½ acre site east of the
                          Charles Harwood Complex. In March 1998, the Department of
                          Property and Procurement issued a "Request for Proposal-
                          Negotiation (Professional Services)" to provide land for, design,
                          and build a health clinic on St. Croix. In July 1998, the
                          then-Governor signed a $4.25 million contract with a St. Croix
                          company to construct the new health clinic on land owned by the
                          company. In August 1998, the Department of Health entered into
                          a lease-purchase agreement with the company to acquire the land
                          at a cost of $173,988 ($57,996 per year over 3 years). Also in
                          August 1998, the Office of Insular Affairs approved
                          reprogramming of $4.62 million initially earmarked for
                          renovation of the Charles Harwood Complex to build the new
                          health clinic. At that time, $421,300 had already been expended
                          on architectural designs and construction work for the Charles
                          Harwood Complex renovation project. Additionally, by
                          November 1998, the company contracted to build the new health
                          clinic had already been paid $449,400 for work on that project.
                          In June 1999, the Department of Property and Procurement
                          terminated the contract for the new health clinic.

                          The handling of the projects to provide an adequate health clinic
                          for the residents of St. Croix had several problems. First, the
                          process used to procure the construction services for the proposed
                          new health clinic circumvented several key aspects of the
                          established procurement procedures, as follows:

                               - In a January 27, 1999 memorandum to the Commissioner
                          of Property and Procurement, the Department of Property and
                          Procurement’s General Counsel stated, "This procurement [for
                          the new clinic] was solicited under guidelines set forth in a
                          Request for Professional Services contrary to the fact that it was
                          a construction project. The appropriate solicitation of this project
                          should have been as a Request for Proposal-Negotiation
                          (Construction)." In the memorandum, the General Counsel also
                          stated, "The procurement of land should not have been solicited
                          in the Request for Proposal, along with the design/build segments
                          of the procurement."




                                         8
    - In an October 19, 2000 letter to the Governor, the
Commissioner of Property and Procurement stated that "the
Evaluation/Negotiation Committee established by the Department
of Property and Procurement [in 1998], in accordance with the
provisions of Title 31 of the Virgin Islands Code, was not given
an opportunity to complete its negotiation tasks with the
company. Instead, the Committee was allowed to become
dormant and a contract awarded without any recommendation
from its members."

    - Further, the formal process of submitting a contract first to
the user department for signature, then to the Commissioner of
Property and Procurement for signature, then to the Department
of Justice for review, and last to the Governor for final approval
was bypassed. Instead, the contract was signed first by the
Governor on July 20, 1998, then by the Commissioner of
Property and Procurement on August 17, 1998, and last by the
Department of Justice on August 20, 1998. The contract was
never signed by Department of Health officials.

Second, the purchase of the land on which the new health clinic
was to be built also circumvented established land acquisition
procedures, as follows:

   - A ground-breaking ceremony was held on August 21, 1998
and the new health clinic was being built on land that was still
owned by the contractor.

    - Although the Department of Health entered into a lease-
purchase agreement with the contractor to acquire the land at a
total cost of $173,988 ($57,996 per year over 3 years), funds for
acquisition of the land had not been appropriated by the
Legislature. The Virgin Islands Code (31 V.I.C. § 248(a)) states,
"No contract or purchase on behalf of the government shall be
made unless the same is authorized by law or is under an
appropriation adequate to its fulfillment."

       - The lease-purchase agreement for the land was entered into
prior to obtaining the necessary appraisals. The Virgin Islands
Code (31 V.I.C. § 231a) states, "In all cases where the
Government of the United States Virgin Islands is authorized to
acquire real property by purchase or exchange for any public use,
. . . the Commissioner of Property and Procurement shall appoint
three appraisers . . . to severally or jointly make a careful
inspection of the land and submit . . . a written statement of the
value of the real estate."


               9
Third, there were unresolved issues related to building permits.
In a May 14, 1999 letter to the Commissioner of Property and
Procurement, a former Health Commissioner stated, "Before a
health facility is constructed, the occupants must make a needs
assessment with the assistance of qualified architects and
engineers."        Additionally, the Virgin Islands Code
(29 V.I.C. § 294(e)) states, "Plans are required to make possible
the checking of the proposed work for structural soundness and
stability." The Department of Planning and Natural Resources
issued a temporary building permit only for construction of the
slab for the new clinic, pending approval of a complete set of
drawings. However, this requirement was not met prior to the
contractor commencing work on the project.

The Department of Property and Procurement issued two Notices
of Suspension of Work, dated March 9, 1999 and June 7, 1999,
to the contractor in order to resolve several issues pertaining to
the project. The construction contract was effectively terminated
by Property and Procurement on June 15, 1999 because permit
and inspection problems existed, funds were not available to
purchase the land on which the clinic was being constructed, and
the proposed floor space of the new clinic was inadequate for the
needs of the Department of Health. At the time, the project was
considered 22 percent complete (see Figures 1 and 2) and the
contractor had already received payments totaling $449,400,
$105,100 from the 1992 Office of Insular Affairs grant and
$344,300 from the local Asset Recovery Fund.




Figure 1. Concrete slab and some of the pre-fabricated wall units for the
proposed Christiansted Health Clinic. (Office of Inspector General photo)




               10
Figure 2. Partially assembled pre-fabricated wall units for the proposed
Christiansted Health Clinic. (Office of Inspector General photo)


In July 2000, the construction company submitted a letter to the
Virgin Islands Attorney General proposing that a resolution to its
terminated contract be reached by the V.I. Government paying
the company $642,800 for five outstanding payment requests and
interest on its line of credit. The company also proposed that the
V.I. Government purchase the site of the proposed new health
clinic, along with seven surrounding plots of land, for $388,000.
At the time of our audit, the merits of this proposal were being
considered by officials of the Attorney General’s Office and the
Department of Property and Procurement.

With regard to the renovation project for the Charles Harwood
Complex, in August 1998, the Office of Insular Affairs approved
the reprogramming of $4.62 million initially earmarked for
renovations of Charles Harwood to build the new health clinic.
A local architectural firm had already completed four design
options for Charles Harwood and had been paid $380,000 by May
1996. Also, a construction company had already renovated the
third floor, north wing of Charles Harwood and had been paid
$41,300 by September 1997. Because this project was terminated
in favor of constructing a new health clinic, the Office of Insular
Affairs requested that the V.I. Government reimburse the grant
account for the $421,300 already spent on Charles Harwood. The
reimbursement transaction was processed in September 2001.

In our opinion, the handling of the transactions related the
proposed Christiansted Health Clinic serve as a case study on the
inefficiencies and waste of public funds that can occur when
established procurement regulations and procedures are
circumvented in the name of expediency.



               11
Contracts Were Awarded     Although the Virgin Islands Code (27 V.I.C. Chapter 9) contains
to Individuals Who Did     the requirements for business licenses, the Department of
Not Have the Appropriate   Property and Procurement awarded contracts to individuals who
Business Licenses          were not properly licensed for the services they provided to the
                           Department of Health. We reviewed business licenses at the
                           Department of Licensing and Consumer Affairs for a sample of
                           nine contractors who were awarded contracts for the Department
                           of Health during fiscal years 1996 through 2001. This review
                           disclosed that one contractor, who installed six air conditioning
                           units at the Charles Harwood Complex (at a cost of $43,200), was
                           only licensed to do business as an "Appliance Repair Shop."
                           Another contractor, who performed renovation work at the
                           Charles Harwood Complex (at a cost of $41,300), was only
                           licensed for "Development and Sale of Own Property."


Contract Files Were        The Virgin Islands Code (31 V.I.C. Chapter 23) and the Property
Incomplete                 and Procurement Manual contain the requirements for
                           documenting the acquisition of contractual services. Despite these
                           requirements, we found that contract files were not sufficiently
                           complete to document procurement actions taken. We reviewed
                           a sample of ten contract files at the Department of Property and
                           Procurement and found that eight notices of award, three notices
                           to proceed, seven progress reports, and four periodical inspection
                           reports were missing. Additionally, we could not determine the
                           type of request for proposal used to select four contractors.

                           We believe that the Department of Property and Procurement
                           should take the necessary steps to ensure that the procurement
                           laws and regulations are adhered to, contractors are properly
                           licensed, and contract files are sufficient to document all
                           procurement actions taken.


                           The V.I. Government did not maintain adequate financial
FINANCIAL                  accountability for grants awarded for the construction of health
ACCOUNTABILITY             care facilities because (1) supporting documentation was not
                           maintained for expenditures totaling $1.1 million that were
                           included in Financial Status Reports, (2) drawdowns had not been
                           requested for reimbursement of expenditures totaling $772,832
                           that had been made from local funds, (3) drawdowns that were
                           made were not timely recorded in the V.I. Government’s
                           Financial Management System, and (4) financial and progress
                           reports were not submitted or were not timely.




                                         12
Supporting              During fiscal years 1996 through 2001, the Department of Health
Documentation Was       reported to the Office of Insular Affairs that it had expended
Not Maintained for      $1.8 million from the 1991 and 1992 grants. To test the validity
Expenditures Totaling   of these expenditures and the accuracy of Financial Status
$1.1 Million            Reports, we attempted to match expenditures to supporting
                        documents. However, we found that supporting documents had
                        not been maintained for expenditures totaling $1.1 million.
                        Although the Office of Insular Affairs did not require supporting
                        documents to be submitted with the Financial Status Reports, the
                        Code of Federal Regulations (43 CFR § 12.953(b)) states that
                        "supporting documents and all other records pertinent to an award
                        shall be retained for a period of three years from the date of
                        submission of the final expenditure report." Because the grants
                        have not yet been closed out and final expenditure reports
                        submitted, the V.I. Government should have continued to
                        maintain the related supporting documents. Since Department of
                        Health officials could not provide us with supporting documents
                        to verify amounts included in the financial status reports, we
                        classified the $1.1 million as unsupported costs. During our
                        review, we also were told by an official of the Virgin Islands
                        Office of Management and Budget that the financial status reports
                        might not have been accurate because no one knew how to
                        complete them and the instructions were unclear.


Drawdowns Had Not       The Cash Management Improvement Act of 1990
Been Requested for      (31 CFR § 205.7(b)) requires that a "state shall minimize the time
Expenditures Totaling   elapsing between the transfer of funds from the United States
$772,832                Treasury and the payout of funds for program purposes by a
                        State, whether the transfer occurs before or after the payout."
                        Despite this requirement, because of a breakdown in
                        communication between the Financial Services Office and the
                        Federal Grants Management Office of the Department of Health,
                        drawdowns of grant funds were not always made to reimburse the
                        V.I. Government for expenditures related to the health care
                        facilities projects. We found that although the Department
                        expended local funds totaling $26,566,778 on the health care
                        projects, drawdowns from the Office of Insular Affairs grants
                        totaled only $25,793,946. Therefore, drawdowns totaling
                        $772,832 had not been made to reimburse the local accounts.
                        Additionally, an official of the Office of Insular Affairs told us
                        that when drawdowns were made, they were done as long as
                        6 months after the local funds had been expended.




                                      13
                         We further found that, because the Office of Insular Affairs was
                         not always informed of the unreimbursed expenditures, its
                         records of the available grant balances were sometimes
                         inaccurate. For example, although Office of Insular Affairs
                         records showed that the unobligated balance of grant funds
                         allocated for the community rehabilitation centers and Ingeborg
                         Nesbitt Clinic projects was shown as $603,726 as of June 2000,
                         the correct balance, after pending drawdowns, should have been
                         $187,700. Similarly, although the unobligated balance of grant
                         funds allocated for the purchase of equipment for the St. Thomas
                         Hospital and the Myrah Keating Smith Clinic was shown as
                         $639,819 as of December 2000, the correct balance, after pending
                         drawdowns, should have been $195,359.


Financial Reports Were   The Code of Federal Regulations (43 CFR § 12.952(a)(1)(iv))
Missing or Untimely      and the Notifications of Grant Award state that financial reports
                         are to be prepared quarterly and submitted to the Federal
                         awarding agency within 30 days after the end of the quarter to
                         which they apply. Despite this requirement, we found that, for
                         the 1991 grant, eight Financial Status Reports and eight Federal
                         Cash Transaction Reports (for the quarters ending September 30,
                         1998 and March 31, 2000 through September 30, 2001) were
                         missing. For the 1992 grant, seven Financial Status Reports (for
                         the quarters ending September 30, 1998 and June 30, 2000
                         through September 30, 2001) and ten Federal Cash Transaction
                         Reports (for the quarters ending December 31, 1995, September
                         30, 1998, December 31, 1998, and March 31, 2000 through
                         September 30, 2001) were missing.

                         An official of the Virgin Islands Office of Management and
                         Budget stated that Financial Status Reports were not prepared for
                         the period of July 1999 to December 2001 because there was no
                         activity during that time. However, the official was not aware
                         that quarterly Federal Cash Transaction Reports were also
                         required. In December 2001, the Office of Insular Affairs refused
                         to approve further grant drawdowns until the missing reports
                         were submitted and, in February 2002, agreed to accept
                         cumulative financial reports for each year (1999, 2000, and 2001)
                         to bring financial reporting up-to-date.            The Office of
                         Management and Budget agreed to prepare the cumulative
                         financial reports, but the responsibility for preparing future
                         financial reports for the Office of Insular Affairs grants was given
                         to the Department of Health’s Federal Grants Management
                         Office.



                                       14
                         We also found that 14 financial reports for the 1991 grant were
                         submitted from 1 to 99 days beyond the required due dates, and
                         11 financial reports for the 1992 grant were submitted from 1 to
                         71 days beyond the required due dates.


Narrative Progress       The Notifications of Grant Award state that a narrative progress
Reports Were Missing     report should be submitted with each quarter’s financial reports.
or Untimely              The Department of Health’s Renovations Office was responsible
                         for preparing the quarterly narrative progress reports, and the
                         activities for both grants were included in one report. However,
                         we found that narrative progress reports were missing or were
                         submitted untimely. For fiscal years 1996 through 2001, the
                         narrative progress reports for the quarters ending March 31, 1997
                         and September 30, 1999 were missing, and 12 progress reports
                         were submitted from 1 to 356 days beyond the required due dates.

                         We believe that the Department of Health should take the
                         necessary steps to enhance internal controls related to
                         maintaining supporting documentation for expenditures, timely
                         processing of drawdown requests, and timely submission of
                         required financial and progress reports.


Drawdowns Were Not       We attempted to trace, to the official financial records at the
Recorded Timely in the   Department of Finance, 37 drawdowns totaling $25.7 million that
V.I. Government’s        were made during the period of June 4, 1991 to September 4,
Financial Management     2001. We were unable to determine if 13 of the drawdowns
System                   totaling $7.6 million were recorded in the V.I. Government’s
                         Financial Management System because the Statement of
                         Remittance forms used to record electronic fund transfers could
                         not be located at the Department of Finance. For 22 other
                         drawdowns, we determined that it took Finance from 6 to
                         807 days (2 years 3 weeks) to record them in the System. For the
                         remaining 2 drawdowns, we could not determine when they were
                         recorded in the system because the dates on the Statement of
                         Remittance forms were not legible. The Department of Finance
                         should take the steps necessary to ensure that drawdowns are
                         recorded promptly in the appropriate accounts in the Financial
                         Management System.




                                       15
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands direct
TO THE GOVERNOR   the Commissioner of Property and Procurement to:
OF THE VIRGIN
ISLANDS               1. Monitor compliance with the requirements of the Virgin
                  Islands Code and the Department’s internal procedures with
                  regard to the procurement of construction contracts.
                  Additionally, the Department should return, without approval,
                  proposed contracts that have not been awarded in accordance
                  with the legal requirements.

                     2. Ensure that contractors are properly licensed for the
                  types of services being provided before approving any contracts
                  awarded to those contractors.

                     3. Ensure compliance with the Department’s internal
                  procedures with regards to maintaining contract files.

                  We recommend that the Governor of the Virgin Islands direct
                  the Commissioner of Health to:

                     4. Require that supporting documentation be maintained for
                  expenditures included in the Financial Status Reports.
                  Specifically, for each Financial Status Report, the supporting
                  payment requests and corresponding paid disbursement vouchers
                  should be attached and filed with the Financial Status Reports.

                      5. Ensure that copies of documents processed for payment
                  are submitted to the Federal Grants Management Office for
                  monitoring of payments and timely preparation of drawdown
                  requests to reimburse the respective local funds from which the
                  expenditures were made.

                     6. Ensure that better communication exists between the
                  Renovations Office, the Financial Services Office, and the
                  Federal Grants Management Office to enhance internal controls
                  over expenditures and drawdowns.




                              16
                      7. Ensure that Financial Status Reports and Federal Cash
                   Transactions Reports are prepared accurately and submitted
                   timely to the Office of Insular Affairs until all grant funds have
                   been expended and the grants have been closed out.

                      8. Ensure that narrative progress reports are prepared and
                   submitted timely to the Office of Insular Affairs.

                   We recommend that the Governor of the Virgin Islands direct
                   the Commissioner of Finance to:

                       9. Take the necessary actions to ensure that electronic fund
                   transfers related to the drawdown of Federal grant funds are
                   promptly recorded in the V.I. Government’s Financial
                   Management System.


                   The draft of this report was submitted to the Governor of the
AUDITEE RESPONSE   Virgin Islands and the Department of Health on May 14, 2002
                   and a response was requested by July 1, 2002. At the
                   Department of Health’s request, on July 23, 2002 we provided
                   another copy of the draft report and requested a response by
                   August 2, 2002. Despite several followup inquiries to the
                   Department, as of August 6, 2002 we had not received a
                   response.     However, the Department of Property and
                   Procurement provided a June 5, 2002 response (Appendix 3) to
                   Recommendations 1, 2, and 3. Property and Procurement’s
                   response stated that its policies and procedures were revised in
                   1996 and that contracts issued during fiscal years 1991 and 1992
                   met the then-existing requirements. The response also stated
                   that a new Policy and Procedure Manual was implemented by
                   the current Commissioner of Property and Procurement and that
                   a training seminar for agency representatives was held in June
                   2001. However, the response did not specifically indicate
                   concurrence or nonconcurrence with Recommendations 1, 2,
                   and 3.


                   Based on the response from the Department of Property and
OFFICE OF          Procurement, we consider Recommendations 1, 2, and 3 to be
INSPECTOR          unresolved. Because we did not receive a response to
GENERAL            Recommendations 4 through 9, those recommendations are also
REPLY              considered to be unresolved (see Appendix 4).




                                17
It appears that the Department of Property and Procurement
misinterpreted the scope of our audit, because the response
suggests that the contracts discussed in this report dated from
fiscal years 1991 and 1992. However, that was not the case.
Although the Interior grants that were the subject of the audit
were awarded to the Department of Health during fiscal years
1991 and 1992, grant funds were available and being used at
least through February 2002.           Because a prior audit
(No. 96-I-722, issued May 1996) had reviewed grant
expenditures during fiscal years 1991 through 1995, the scope
of the current audit was fiscal years 1996 through 2001.




            18
APPENDIX 1 - MONETARY IMPACT
                                            Unsupported                      Funds To Be Put
FINDING AREAS                                  Costs*                         To Better Use*
Contract Administration:
  Reimbursement to Grant                                                          $421,300
  Payments to Contractor                                                           449,400**
Financial Accountability:
  Unsupported Expenditures                   $1,082,290
  Drawdowns Not Requested                    _________                             772,832
      Totals                                 $1,082,290                         $1,643,532




___________________
*Amounts represent Federal funds unless otherwise noted.
**Of the $449,400, $105,100 represents Federal funds and $344,300 represents local funds.




                                                       19
APPENDIX 2 - PRIOR AUDIT REPORT
                 The May 1996 report "Grants for the Construction of
OFFICE OF        Health Care Facilities, Government of the Virgin Islands"
INSPECTOR        (No. 96-I-722) stated that (1) adequate contract files were not
GENERAL REPORT   maintained to document procurement actions; (2) there was no
                 assurance that competitive procurement procedures were used to
                 the maximum extent practicable; (3) plans and specifications
                 were not sufficiently detailed to minimize the need for contract
                 change orders; (4) the receipt and recording of drawdowns
                 against Federal grants could not be verified; (5) oversight of
                 construction projects for health care facilities was not adequate;
                 (6) project budgets were inadequate for the equipment and staff
                 needed to make full use of newly constructed health care
                 facilities; (7) sufficient funds were not available to refurbish the
                 Charles Harwood Complex to the extent needed to meet health
                 care needs; (8) there was no assurance that a contractor and its
                 subcontractors, who were given advance payments for
                 refurbishment at the St. Thomas Hospital, completed all required
                 work; and (9) there was no assurance that construction projects
                 were completed expeditiously and closed out.

                 The report included nine recommendations to improve contract
                 administration and construction oversight. However, based on
                 our review, we concluded that internal control weaknesses still
                 existed with regard to compliance with procurement procedures,
                 the adequacy of contract files, and the receipt and recording of
                 drawdowns.




                              20
APPENDIX 4 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference              Status                       Action Required

        1 to 9           Unresolved.        Consider the recommendations and provide
                                            a response that states concurrence or
                                            nonconcurrence with each recommendation.
                                            If concurrence is stated, provide a corrective
                                            action plan that includes the target date and
                                            title of the official responsible for
                                            implementation of each recommendation.




                                       25
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
